CERTIFICATE OF SERVICE
Case No. 20-1640
Case Name: Frederick M. Weber v. State of Ohio
I, G. Ernie Ramos, Of Counsel for the Clermont County Prosecutor’s Office,
hereby certify that on this 21st day of July, 2021, I caused three copies of the Brief
for the Respondent in Opposition to be served by priority mail to:
STEPHEN E. PALMER
Counsel of Record
YAVITCH & PALMER CO., L.P.A.
511 South High Street
Columbus, Ohio 43215
(614) 224-6142
spalmer@ohiolegaldefense.com
Counsel for Petitioner
I further certify that all parties required to be served have been served.
Respectfully submitted,
G. ERNIE RAMOS, JR.

Clermont County Prosecutor’s Office
(Of Counsel)
Counsel of Record
101 East Main Street,
Batavia, Ohio 45103
(513) 732-7993
eramos@clermontcountyohio.gov

